               Recovery Act Report
        Installation of Foreign Bollards at
           Scobey Land Port of Entry
Review of PBS’s Reimbursable Work Authorization
 Projects Funded by the American Recovery and
            Reinvestment Act of 2009
       Audit Number A090169/P/R/R11015

              September 30, 2011
Date:               September 30, 2011

Reply to            R. Nicholas Goco
Attn of:            Deputy Assistant Inspector General
                    For Real Property Audits (JA-R)

Subject:            Recovery Act Report
                    Installation of Foreign Bollards at Scobey Land Port of Entry
                    Review of PBS’s Reimbursable Work Authorization
                    Projects Funded by the American Recovery and Reinvestment
                    Act of 2009
                    Audit Number A090169/P/R/R11015

To:                 Robert A. Peck
                    Commissioner
                    Public Buildings Service (P)

As part of our oversight of Reimbursable Work Authorizations (RWA) issued under American
Recovery and Reinvestment Act (Recovery Act) projects, we reviewed nine General Services
Administration (GSA) managed projects for the Land Port of Entry (LPOE) Modernization
Program. During our review, we identified an issue involving a violation of the Buy American
provision of the Recovery Act that warrants your attention.

Installation of Foreign Bollards violates Section 1605 of the Recovery Act.

Construction material manufactured in the Republic of Korea was installed as bollards 1 at the
Scobey, Montana LPOE in violation of Section 1605 of the Recovery Act. Purchasing foreign
made construction material marginalizes the basic intent of the Recovery Act: stimulating the
American economy.

GSA awarded a Design/Build construction contract for $6,595,988.13 on August 14, 2009, to
modernize the Scobey LPOE. The contract was funded by the Recovery Act. On September 16,
2010, a subcontractor ordered Korean-manufactured material for bollards that were installed on
October 1, 2010.

Section 1605(d) provides that the Buy American clause shall be applied to Recovery Act projects
in a manner consistent with U.S. obligations under international (trade) agreements. The Section
states:


1
    Reinforced posts that protect the Radiation Portal Monitors against accidental damage.

                                                           1
        None of the funds appropriated or otherwise made available by this Act may be
        used for a project for the construction, alteration, maintenance, or repair of a
        public building or public work unless all of the iron, steel, and manufactured
        goods used in the project are produced in the United States.

The contracting officer researched this situation after we brought it to his attention.                          He
determined that a violation had not occurred because:

        Once the value of the order exceeded the threshold for application of the WTO, 2
        the provisions contained in FAR 52.225-23 were activated for WTO countries. At
        the time the bollards manufactured in Korea were installed, the threshold for
        application of the WTO had been reached. Since Korea is listed as a WTO
        country, installation of the Korean bollards was in compliance with the ARRA
        Buy American Act requirements.

We disagree with this determination. While the Federal Acquisition Regulation (FAR) 52.225-
23, 3 allows the use of construction materials by a WTO when the acquisition exceeds a threshold
established by the Trade Agreements Act (i.e. Buy American is waived), this is predicated on the
contracting officer making the threshold determination based on an “estimated acquisition
value”—not the actual, completed costs. The FAR assumes that the contracting officer will
make the threshold determination at the time of award, not after the fact.

The contracting officer based his threshold determination on the cost of the project at the time
the bollards were installed, not the acquisition value at the time of the contract award. 4 The
contract award amount of $6,595,988.13 was well under the TAA threshold of $7,443,000 in
effect at that time.

Even if the contracting officer had conducted a new threshold determination on September 16,
2010, the day the bollards were procured, it would not have justified waiving the Buy American
provisions. The contract’s estimated value at that time was $6,816,399.56, well below the new
TAA threshold of $7,804,000 established on January 1, 2010.

Conclusion

The Scobey LPOE project meets the definition contained in Section 1605 of the Recovery Act,
which requires that all manufactured goods used as “construction material” in a construction
project funded by the Recovery Act be produced or manufactured in the United States.
Construction materials used in bollards at the Scobey LPOE were produced in the Republic of
Korea, not the United States. 5 Accordingly, their use violates the Recovery Act.

2
  World Trade Organization Government Procurement Agreement (WTO). The WTO falls under the Trade
Agreements Act (TAA).
3
  Required Use of American Iron, Steel, and Other Manufactured Goods-Buy American Act-Construction Material
Under Trade Agreements.
4
  At the time of installation, a September 29, 2010 modification increased the contract value to $7,997,642.77 which
was above the January 1, 2010 TAA threshold of $7,804,000.
5
  According to the subcontractor's quote, the cost of the domestic material was $12,358.08 versus $7,770 for the
foreign material, a difference of $4,588.08.

                                                         2
Recommendations

We recommend that the Commissioner of the Public Buildings Service:

             1. Ensure Construction Contractors, Construction Managers, and PBS Project
                Personnel are knowledgeable of the requirement of Section 1605 of the Recovery
                Act (i.e. the use of foreign construction material), and that violations are reported
                to the GSA contracting officer.

             2. Obtain a credit, if applicable, from the Design/Build contractor for the difference
                in value between the foreign made bollards and comparable U.S. manufactured
                bollards.

Management Comments

In its response to the draft report, PBS concurred with our findings and accepted the report
recommendations. PBS’s response is included in its entirety as Attachment A to this report.

We appreciate the support that has been provided throughout this review. If you have any
questions about this report, please contact me at (202) 219-0088.


Sincerely,

R. Nicholas Goco
Deputy Inspector General
For Real Property Audits (JA-R)




                                                  3
               Recovery Act Report
        Installation of Foreign Bollards at
           Scobey Land Port of Entry
Review of PBS’s Reimbursable Work Authorization
 Projects Funded by the American Recovery and
            Reinvestment Act of 2009
       Audit Number A090169/P/R/R11015

           Management Comments




                     A-1
                                      Recovery Act Report
                 Installation of Foreign Bollards at Scobey Land Port of Entry
                     Review of PBS’s Reimbursable Work Authorization
                       Projects Funded by the American Recovery and
                                   Reinvestment Act of 2009
                              Audit Number A090169/P/R/R11015

                        Background, Objective, Scope, and Methodology

Background

The GSA Office of Inspector General (OIG) is conducting oversight of the projects funded by
the Recovery Act. Included in this oversight are projects for which Recovery Act funds were
transferred to GSA’s Public Buildings Service (PBS) through Reimbursable Work
Authorizations for the purpose of constructing, renovating, and altering federal buildings.

Under the LPOE Modernization Program, the Department of Homeland Security received $420
million in Recovery Act funds for the planning, management, design, alteration, and construction
of U.S. Customs and Border Protection (CBP) owned LPOEs. These funds are to be used to (1)
expand the ports to address increasing demands, thereby reducing wait times at many locations;
(2) incorporate mission enhancements required to bring these facilities up to current operational
requirements; and (3) address deteriorating physical conditions. CBP provided PBS
approximately $101 million in Reimbursable Work Authorizations to perform LPOE
modernization work at nine LPOEs.

Objective

The objective of the Office of Inspector General’s Recovery Act oversight is to determine if PBS
is planning, awarding, and administering contracts for Reimbursable Work Authorization
projects in accordance with prescribed criteria and Recovery Act mandates.

Scope

We performed the work for this report between March 2011 and July 2011.

Methodology

To accomplish the objective we reviewed pertinent project documents, held discussions with
project staff, obtained legal guidance from the GSA-OIG Office of General Counsel, and
reviewed applicable guidance and regulations.

Except as noted below, we conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

                                               B-1
The planning for this review is based on the audit plan for oversight of the Recovery Act projects
as well as review guidance being applied to all Reimbursable Work Authorization Recovery Act
projects. A separate guide was not prepared for this project.

As this work was performed under the continuing oversight of all GSA Recovery Act projects,
management controls are currently under assessment. Only those management controls
discussed in the report have been assessed.




                                               B-2
                                  Recovery Act Report
                           Installation of Foreign Bollards at
                              Scobey Land Port of Entry
                   Review of PBS’s Reimbursable Work Authorization
                    Projects Funded by the American Recovery and
                               Reinvestment Act of 2009
                          Audit Number A090169/P/R/R11015

                                  Report Distribution

Commissioner, Public Buildings Service (P)

National Program Office ARRA Executive, Public Buildings Service (PCB)

Branch Chief, GAO and IG Audit Response Branch (BCBB)

Public Buildings Service Audit Liaison (PFF)

Assistant Inspector General for Auditing (JA)

Director, Audit Planning, Policy, and Operations Staff (JAO)

Deputy Assistant Inspector General for Investigations (JI)




                                          C-1
